App. 1
United States Court of Appeals
for the Fifth Circuit
____________
No. 18-70030
____________
ROBERT GENE WILL, II,

Petitioner—Appellant,

versus
BOBBY LUMPKIN, Director, Texas Department of
Criminal Justice, Correctional Institutions
Division,
Respondent—Appellee.
________________________
Appeal from the United States District Court
for the Southern District of Texas
USDC No. 4:07-CV-1000
________________________
(Filed October 22, 2020)
ON PETITION FOR REHEARING
Before OWEN, Chief Judge, and WILLETT and HO,
Circuit Judges.
DON R. WILLETT, Circuit Judge:
The petition for panel rehearing is GRANTED.
We withdraw our prior opinion,

App. 2
970 F.3d 566 (5th Cir. 2020), and substitute the
following.
Robert Gene Will II was sentenced to death by a
Texas jury for the murder of Harris County Sheriff’s
Deputy Barrett Hill. After his failed direct appeal
and state habeas petitions, Will pursued federal
habeas relief. His claims for ineffective assistance of
counsel and inherent trial prejudice were denied—
the former as procedurally defaulted and the latter
on the merits. Will attempted to contest the
procedural-default holding through a Rule 60(b)
motion, but the district court concluded that it
lacked jurisdiction because the motion constituted a
successive habeas petition. We agree that Will’s
Rule 60(b) motion was a successive habeas petition,
and we affirm the district court. We also affirm the
denial of Will’s inherent-prejudice claim, as Will
fails to overcome the arduous standard of review in
the Anti-Terrorism and Effective Death Penalty Act.
I
Will was found guilty of capital murder in Texas
state court and sentenced to death. 1 Will appealed
directly to the Texas Court of Criminal Appeals,
arguing that the presence of uniformed officers in
the courtroom impermissibly prejudiced the jury,

For full treatment of Will’s previous proceedings, see Will v.
Thaler, No. H-07-CV-1000, 2010 WL 2179680, at *1–6 (S.D.
Tex. May 25, 2010).
1

App. 3
but the court disagreed. 2 Will then filed a state
habeas petition with the same court on the same
grounds. The CCA reached the same conclusion and
denied relief. 3
Will then filed a federal habeas petition,
maintaining his argument about impermissible trial
prejudice and adding an argument based on
ineffective assistance of trial counsel (and one based
on actual innocence claim, not pursued in this
appeal). 4 The district court stayed Will’s federal
proceedings so he could exhaust the new claims in
state court. Will filed a second state habeas petition
raising the new claims, which the CCA denied on
procedural grounds.
Back in federal court, the district court denied
Will’s petition because (1) the IATC claim was
procedurally defaulted and failed on its merits

Will v. State, No. 74,306, 2004 WL 3093238, at *4 (Tex. Crim.
App. April 21, 2004) (unpublished).

2

3 Ex parte Will, No. 63,590-01, 2006 WL 832456, at *1 (Tex.
Crim. App. March 29, 2006) (per curiam) (unpublished).

We note that Will’s state habeas counsel had Parkinson’s
disease at the time he filed this petition. A reviewing doctor
testified that “it is probable that [counsel] was mentally
impaired by the affects [ ] of Parkinson’s disease to the degree
that it made him unfit to serve in the capacity as habeas
counsel for a capital appeal.”

4

App. 4
regardless, and (2) the state court did not err in
denying the trial-prejudice claim on the merits. 5
Will filed a Rule 59 motion for a new trial and to
alter the district court’s judgment; this motion was
denied. Will then filed a Rule 60(b) motion for relief
from the district court’s judgment. The motion
focused on the ineffective assistance of both his trial
counsel and state habeas counsel, urging that the
latter should excuse the procedural default of his
claim about the former. The district court found,
however, that Will’s Rule 60(b) motion challenging
the procedural-default ruling necessarily implied a
challenge to the merits ruling, meaning that the
motion was a successive habeas petition.
Accordingly, the court denied it for lack of
jurisdiction. 6 Will appealed this denial to us. 7
But, before we could rule, the Supreme Court
decided Martinez v. Ryan, holding that
“[i]nadequate assistance of counsel at initial-review
collateral proceedings may establish cause for a
prisoner’s procedural default of a claim of ineffective
assistance at trial.” 8 So we remanded Will’s appeal
5

Will, 2010 WL 2179680, at *14–24.

Will v. Thaler, No. CIV.A. H-07-1000, 2012 WL 948409, at *2
(S.D. Tex. Mar. 19, 2012), order clarified sub nom. Will v.
Davis, No. H-07-CV-1000, 2018 WL 4621170 (S.D. Tex. Sept.
26, 2018).

6

Will v. Davis, No. H-07-CV-1000, 2018 WL 4621170, at *1
(S.D. Tex. Sept. 26, 2018).
7

566 U.S. 1, 9, 132 S.Ct. 1309, 182 L.Ed.2d 272 (2012). A year
later Trevino v. Thaler came down, applying the Martinez rule

8

App. 5
to the district court for (1) reconsideration of the
Rule 60(b) motion dismissal in light of this new
precedent, and (2) clarification on whether a
certificate of appealability should issue on Will’s
claims.
The district court again denied Will’s Rule 60(b)
motion, reasoning that, regardless of Martinez, it “is
a successive habeas petition which the [c]ourt has no
jurisdiction to consider under [AEDPA].” 9 But it also
granted Will a COA on two issues: his dismissed
Rule 60(b) motion and his denied trial-prejudice
claim. 10 Will pursues these claims now, arguing that
(1) the Rule 60(b) motion is not an impermissible
successive habeas petition because it only attacked
the “integrity of the [underlying] federal habeas
proceeding,” and (2) he should be granted habeas
relief from the adverse trial-prejudice ruling because
the CCA misapplied clearly established federal law
or its holding was based on unreasonable factual
determinations.
II
As to Will’s first argument, we review de novo
“[t]he district court’s determination that a purported

to cases from Texas state courts. 569 U.S. 413, 417, 133 S.Ct.
1911, 185 L.Ed.2d 1044 (2013).
9

Will, 2018 WL 4621170, at *1.

10

Id. at *3.

App. 6
Rule 60(b) motion constitutes a successive § 2254
habeas petition.” 11
As to Will’s second argument, our review of the
CCA’s trial-prejudice decision is narrow: we only
consider whether the decision was “contrary to, or an
unreasonable application of, clearly established
Federal law” or “based on an unreasonable
determination of the facts in light of the evidence
presented in the State court proceeding.” 12
III
A
Will proceeds under our statutorily prescribed
and exactingly applied habeas framework.
Normally, “Rule 60(b) allows a party to seek relief
from a final judgment, and request reopening of his
case, under” extraordinary circumstances. 13 But in
the habeas context, Will’s Rule 60(b) motion runs
headlong into AEDPA’s restriction on successive
habeas applications. Why? Because we—the federal
judiciary—are concerned that petitioners will use
Rule 60(b) motions to subvert the statutory
framework and get an impermissible second look at

Gilkers v. Vannoy, 904 F.3d 336, 342 (5th Cir. 2018), cert.
denied, ––– U.S. ––––, 139 S. Ct. 1192, 203 L.Ed.2d 223 (2019).

11

12

28 U.S.C. § 2254(d).

Gonzalez v. Crosby, 545 U.S. 524, 528, 125 S.Ct. 2641, 162
L.Ed.2d 480 (2005).
13

App. 7
their denied habeas claims. 14 So, we must ask, was
Will’s Rule 60(b) motion actually an impermissible
successive habeas petition in disguise? The answer:
yes, if his Rule 60(b) motion contains one or more
previously presented habeas claims. 15
A habeas claim “is an asserted federal basis for
relief from a state court’s judgment of conviction.” 16
“In most cases, determining whether a Rule 60(b)
motion advances one or more ‘claims’ will be
Gilkers, 904 F.3d at 343 (“To ensure that habeas petitioners
do not circumvent these statutory requirements by filing Rule
60(b) motions that are the functional equivalent of
unauthorized successive § 2254 petitions, the Supreme Court
set forth several guidelines ... for determining the
circumstances under which a district court may properly
consider a Rule 60(b) motion in a § 2254 habeas proceeding.”);
Gonzalez, 545 U.S. at 532, 125 S.Ct. 2641 (“[A]lleging that the
court erred in denying habeas relief on the merits is effectively
indistinguishable from alleging that the movant is, under the
substantive provisions of the statutes, entitled to habeas
relief.”); see also Leal Garcia v. Quarterman, 573 F.3d 214, 220
(5th Cir. 2009) (stating that AEDPA serves as a “gate-keeper
by preventing the repeated filing of habeas petitions that
attack the prisoner’s underlying conviction”).
14

15 Gonzalez, 545 U.S. at 530, 125 S.Ct. 2641 (stating that §
2254’s successive petition bar only applies to a petitioner’s Rule
60(b) motion if it is an “application for habeas relief”; a motion
applies for habeas relief if it “contains one or more ‘claims’ ”
(citations omitted)); Williams v. Thaler, 602 F.3d 291, 301 (5th
Cir. 2010) (“AEDPA instructs us to dismiss any claim
presented in a second or successive petition if a petitioner
presented the claim in a previous application.” (citation
omitted)).
16

Gonzalez, 545 U.S. at 531, 125 S.Ct. 2641.

App. 8
relatively simple”: the motion advances a claim “if it
attacks the federal court’s previous resolution of a
claim on the merits.” 17 But, as we said in Gilkers,
“there are two circumstances in which a district
court may properly consider a Rule 60(b) motion in
a § 2254 proceeding: (1) the motion attacks a ‘defect
in the integrity of the federal habeas proceeding’ or
(2) the motion attacks a procedural ruling that
precluded a merits determination.” 18 “If the
purported Rule 60(b) motion satisfies one of these
circumstances,” the motion does not present a
habeas claim, and “the district court may then
properly consider [it] under Rule 60(b).” 19
This means that we must assess two of the
district court’s orders: the order denying Will’s Rule
60(b) motion challenging the denial of habeas relief,
plus the denial of habeas relief itself. 20
Will’s Rule 60(b) motion attempted to request
relief only on the grounds that the district court had
erroneously concluded that his IATC claim was
procedurally defaulted (procedural default being a
proper 60(b) topic, such a request might dodge §
2244’s jurisdictional bar on second or successive
habeas petitions). But the district court ascertained
that a review of the procedural-default conclusion in
17

Id. at 532, 125 S.Ct. 2641.

18

904 F.3d at 344.

19

Id. (citation omitted).

20

Will, 2018 WL 4621170, at *1, *14–18.

App. 9
this case would be fruitless without a review of the
order’s other conclusion—that, alternatively, the
IATC claim failed on the merits. And a review of the
merits would constitute a second or successive
habeas petition, beyond the purview of Rule 60(b),
and beyond the district court’s jurisdiction under §
2244. 21 The district court therefore denied Will’s
motion as “a successive habeas petition which the
[c]ourt has no jurisdiction to consider under
AEDPA.” 22
On appeal, Will’s briefing predominantly tracks
the first circumstance Gilkers discussed, Gonzalez’s
“defect in integrity” prong. Because of the erroneous
procedural-default ruling, he argues, the court only
briefly addressed the merits of Will’s IATC claim
instead of giving it full substantive treatment. Thus,
Will argues, his Rule 60(b) motion’s “attack on the
district court’s decisionmaking process was
procedural,” not merits based, [and] his [ ] motion is
[therefore] not a successive petition.” The State
disagrees: Will’s motion impermissibly attacked “the

Will, 2010 WL 2179680, at *18 (“Even if this Court could
consider the substance of Will’s ineffective-assistance claim, he
has not shown Strickland prejudice. The Court alternatively
denies his Strickland claim on the merits.”); Will, 2018 WL
4621170 (“[T]he Court alternatively ruled on the merits of the
claims in Will’s federal petition.”).

21

22

Will, 2018 WL 4621170, at *1–3.

App. 10
federal court’s previous resolution of a claim on the
merits” no matter how you frame it.
Will’s “defect in integrity” argument is
unavailing: The merits analysis was four pages long
and analytically robust. 23
The closer question is the second circumstance
Gilkers discussed, whether Will’s motion attacks a
procedural ruling that precluded a merits
determination. 24 Here, the district court disposed
of Will’s IATC claim on procedural-default grounds,
a procedural ruling; but it also reasoned, in the
alternative, that Will’s IATC claim failed on the
merits. 25
The crux of our inquiry is simple—is a merits
analysis in the alternative a merits determination? If
so, the district court’s procedural disposition did not
preclude a merits determination and, in turn, Will’s
Rule 60(b) motion presents a habeas claim. Because
we hold that a full merits analysis in the alternative
is a merits determination, the court’s procedural
23

See, e.g., Will, 2010 WL 2179680, at *14–18.

24 Gilkers, 904 F.3d at 344. Though Will did not focus on this
argument, his comprehensive briefing presented this
contention, and we review it. With multiple pages of
development, record cites, and case examples, the briefing was
not so cursory that Will forfeited the argument. See Claimant
ID 100217021 v. BP Expl. & Prod., Inc., 693 F. App’x 272, 276
n.4 (5th Cir. 2017) (citing Cinel v. Connick, 15 F.3d 1338, 1342–
45 (5th Cir. 1994)).
25

Will, 2010 WL 2179680, at *14–18.

App. 11
disposition did not “preclude[ ] a merits
determination.” 26
Therefore, Will’s Rule 60(b)
motion—attacking a procedural ruling paired with a
merits determination in the alternative—is a
successive habeas petition that we lack jurisdiction
to consider.
Consider Gonzalez. In that seminal case, Justice
Scalia reasoned that a motion only presents a
habeas claim if, among other things, the motion
“attacks the federal court’s previous resolution of a
claim on the merits.” 27 “[O]n the merits” means “a
determination that there exist or do not exist
grounds entitling a petitioner to habeas corpus
relief.” 28 And a merits analysis in the alternative
makes this substantive determination, even if such
determination was not the basis for the court’s
holding. 29 So, when a court order analyzes whether
“there exist or do not exist grounds entitling a
petitioner” to habeas relief—in other words, makes
a merits determination—a Rule 60(b) motion
contesting this order (even on procedural grounds)
necessarily presents a successive habeas claim. 30
After all, if a petitioner succeeds on a procedural

26

See Gilkers, 904 F.3d at 344.

27

545 U.S. at 532, 125 S.Ct. 2641 (emphasis in original).

28

Id. at 531–32 n.4, 125 S.Ct. 2641 (emphasis added).

29

Id.

30

Id.

App. 12
claim, the court’s merits determination in the
alternative will control. 31
Here, the district court found Will’s claim
procedurally barred. But it went on to analyze Will’s
substantive contentions, “alternatively den[ying] his
Strickland claim on the merits.” 32 Will filed a Rule
60(b) motion for relief from this judgment, urging
that the procedural-bar ruling was erroneous. Let’s
assume Will’s motion is granted—what happens
next? The district court’s alternative determination
will preclude any habeas relief on the merits. 33 In
turn, because the court made a substantive habeas
ruling in the alternative, it cannot be said that Will’s
Rule 60(b) motion is “merely assert[ing] that a
previous
ruling
...
precluded
a
merits
34
determination.” The court’s merits determination
was not precluded; it was merely layered below a
procedural disposition. Therefore, when a court
order disposes of a habeas claim on procedural and,
in the alternative, substantive grounds, a Rule 60(b)
See, e.g., Gallegos-Hernandez v. United States, 688 F.3d 190,
196 (5th Cir. 2012) (analyzing a district court’s alternative
holding after it overruled its primary holding); United States v.
Minjarez, 540 F. App’x 349, 350 (5th Cir. 2013) (unpublished)
(affirming a district court based on its alternative holding);
Giles v. City of Dallas, 539 F. App’x 537, 542 (5th Cir. 2013)
(unpublished) (same).

31

32

Will, 2010 WL 2179680, at *18.

33 Gonzalez, 545 U.S. at 532, 125 S.Ct. 2641; see also supra
note 31.
34

Id.

App. 13
motion contesting this order inherently presents a
successive habeas petition.
This conclusion finds support in Gonzalez. As
we’ve discussed, the Gonzalez Court was concerned
with preventing habeas petitioners from using Rule
60(b) motions to circumvent AEDPA’s “successivepetition bar.” 35 And our ruling today respects the
Court’s expressed concern, recently reexpressed in
Bannister v. Davis: “A Rule 60(b) motion ...
threatens serial habeas litigation; indeed, without
rules suppressing abuse, a prisoner could bring such
a motion endlessly.” 36 Moreover, giving due weight
to a district court’s alternative reasoning on the
merits tracks this circuit’s “rule that alternative
holdings are binding precedent and not obiter
dictum.” 37
In sum, Will’s Rule 60(b) motion—facially
challenging a procedural ruling and implicitly
challenging a merits determination—presents a
habeas claim. 38 Accordingly, we affirm the district
35

Id.

36

––– U.S. ––––, 140 S. Ct. 1698, 1710, 207 L.Ed.2d 58 (2020).

Texas v. United States, 809 F.3d 134, 178 (5th Cir. 2015), as
revised (Nov. 25, 2015) (internal quotations omitted).
37

Will’s Rule 60(b) motion also argues that the district court’s
proceeding was defective because it made its IATC
determination “with the benefit of too little evidence” and
therefore his motion presenting such evidence isn’t successive.
But these substantive contentions are squarely successive, and
improper, under our precedent. In re Coleman, 768 F.3d 367,
371–72 (5th Cir. 2014) (finding that petitioner’s Rule 60(b)
38

App. 14
court’s holding that “Will’s 60(b) Motion is a
successive habeas petition which the Court has no
jurisdiction to consider under AEDPA.” 39
B
Will next contends the CCA’s holding that “the
mere presence of uniformed officers in the courtroom
[did not] create[ ] an atmosphere that ‘inherently
lacked due process’ ” was in error; therefore, he
insists, this habeas claim should have been
Because the CCA rejected Will’s
granted. 40
inherent-prejudice claim on the merits, its holding is
subject to AEDPA’s relitigation bar. 41 Attempting to
hurdle this bar, Will urges the state court’s decision
was an unreasonable application of clearly
established Supreme Court precedent—namely
Holbrook v. Flynn, 475 U.S. 560, 106 S.Ct. 1340, 89
L.Ed.2d 525 (1986)—and was “based on an

motion, requesting relief because her counsel did not present
certain evidence, was barred as a successive habeas petition).
This outcome is predicated on the comprehensive nature of
the district court’s substantive merits determination in the
alternative. Will, 2010 WL 2179680, at *14–18. Our holding
today would not apply with equal force in a future case with an
unduly cursory alternative merits analysis.
39

40

Will, 2004 WL 3093238, at *4 (cleaned up).

41

§ 2254(d).

App. 15
unreasonable determination of the facts.” We
disagree on both fronts.
A state court unreasonably applies clearly
established Supreme Court precedent when it
improperly identifies the governing legal principle,
unreasonably extends (or refuses to extend) a legal
principle to a new context, or when it gets the
principle right but “applies it unreasonably to the
facts of a particular prisoner’s case.” 42 But the
Supreme Court has only clearly established
precedent if it has “broken sufficient legal ground to
establish an asked-for constitutional principle.” 43 To
Will, 12–18 uniformed officers seated in the
42 Williams v. Taylor, 529 U.S. 362, 407–08, 120 S.Ct. 1495, 146
L.Ed.2d 389 (2000); see also Harrington v. Richter, 562 U.S. 86,
102, 131 S.Ct. 770, 178 L.Ed.2d 624 (2011) (stating that
relitigation is only permitted “where there is no possibility
fair[-]minded jurists could disagree that the state court’s
decision conflicts with [Supreme] Court[ ] precedent[ ]”).

Taylor, 529 U.S. at 380–82, 120 S.Ct. 1495 (“[T]he lower
federal courts cannot themselves establish such a principle.”);
see, e.g., Pierre v. Vannoy, 891 F.3d 224, 228 (5th Cir.), as
revised (June 7, 2018), cert. denied, ––– U.S. ––––, 139 S. Ct.
379, 202 L.Ed.2d 290 (2018) (“Without a Supreme Court case
holding that the State’s unknowing use of false testimony
violates the Due Process Clause, Pierre cannot show that the
Louisiana Supreme Court unreasonably applied clearly
established federal law as determined by the Supreme Court of
the United States.”); Woodward v. Epps, 580 F.3d 318, 332 (5th
Cir. 2009) (“Given the lack of a clear Supreme Court holding
that a defendant is entitled to independent psychiatric
assistance and the different circuit interpretations of Ake on
this point, the decision of the Mississippi Supreme Court was
not ‘contrary to’ or an ‘unreasonable application of’ clearly
established federal law.”).
43

App. 16
courtroom gallery near the jury inherently
prejudiced him in violation of Flynn, and the CCA’s
decision otherwise was an unreasonable application
of this clearly established precedent.
Will’s argument is well made, but not well taken.
Neither Flynn, nor any other Supreme Court
precedent, clearly establishes when uniformed, offduty officers in the courtroom gallery generate
Because this necessary
inherent prejudice. 44
predicate is not met, Will’s argument is a nonstarter under our deferential standard of review. 45
Next, Will admonishes that habeas relief is
separately warranted because the state court’s
44 Flynn, 475 U.S. at 572, 106 S.Ct. 1340; Jones v. Davis, 890
F.3d 559, 568 (5th Cir. 2018), cert. denied, ––– U.S. ––––, 139
S. Ct. 795, 202 L.Ed.2d 587 (2019) (finding that off-duty
uniformed police officers in the gallery present “neither clearly
private nor clearly state action” and noting that the Supreme
Court has never considered Flynn’s applicability to these
quasi-state spectators); Carey v. Musladin, 549 U.S. 70, 76, 127
S.Ct. 649, 166 L.Ed.2d 482 (2006) (“In contrast to statesponsored courtroom practices, the effect on a defendant’s fairtrial rights of [private spectator conduct] is an open question in
our jurisprudence. This Court has never addressed a claim that
such private-actor courtroom conduct was so inherently
prejudicial that it deprived a defendant of a fair trial.”).

Put simply, the Supreme Court has hindered Will’s claim by
not affirmatively “establish[ing]” the “asked-for constitutional
principle.” Taylor, 529 U.S. at 380–82, 120 S.Ct. 1495; Carey,
549 U.S. at 76, 127 S.Ct. 649 (“Given the lack of holdings from
this Court regarding the potentially prejudicial effect of
[private] spectators’ courtroom conduct ..., it cannot be said
that the state court ‘unreasonably applied clearly established
Federal law.’ ” (cleaned up)). In Jones, we acknowledged the
lack of Supreme Court direction on this issue but nonetheless
45

App. 17
decision was based on an “unreasonable
determination of the facts in light of the evidence
presented in the State court proceeding.” 46 Will
trains his sights on the CCA’s “erroneous” finding
that Will’s case is distinguishable from Woods v.
Dugger, 47 “because, among other things, there is no
evidence that any of [Will’s] jurors had close ties to
law enforcement.” 48 But the CCA’s factual findings
are “entitled to a presumption of correctness,” and
Will can only overcome that presumption “by clear

reviewed a similar claim on the merits, analyzing whether the
“police presence intimidated the jury or disrupted the factfinding process in any way.” 890 F.3d at 571. We do not take a
similar course here because our review is hemmed in by §
2254(d), as in Carey, 549 U.S. at 76, 127 S.Ct. 649; in contrast,
Jones’s review was de novo. 890 F.3d at 567.
46

Taylor, 529 U.S. at 386, 120 S.Ct. 1495 (cleaned up).

923 F.2d 1454, 1459–60 (11th Cir. 1991) (finding that the
presence of uniformed prison guards filling over half the
gallery, disruptive spectators, the small juror pool, and
extensive pre-trial publicity created “an unacceptable risk [of]
impermissible factors coming into play”).
47

Will, 2004 WL 3093238, at *4. Will also takes issue with the
state court’s assertion that “appellant objected to the officers’
uniforms on only two occasions during a two and one-half week
trial consisting of 12 days of testimony.” But Will’s issue is
more with the state court’s implicit finding that the lack of
objections demonstrated the record was too scant to depict
inherent prejudice. However, this argument is curtailed by our
standard of review—it erroneously takes issue with how the
state court applied the law to the record, which we cannot
review, rather than the reasonableness of the court’s factual
determinations.
48

App. 18
and convincing evidence.” 49 Though Will’s claim is
not frivolous, we ultimately disagree—the CCA’s
decision wasn’t based on an unreasonable factual
determination.
We agree with Will at the outset: The CCA’s
conclusion that there was no evidence Will’s jurors
“had close ties to law enforcement” was
unreasonable considering the evidence before it. The
juror questionnaires and trial transcript clearly and
convincingly establish that at least three jurors
actually had “close ties” to police officers. But we
disagree with Will’s conclusion. The CCA’s noinherent-prejudice decision was not based on this
unreasonable determination. Rather, its holding
was founded on the lack of evidence of “some type of
state action.” 50 Its citation to “no evidence” of law
enforcement ties merely bolstered the conclusion it
had already reached. 51 In other words, even if the
CCA had gotten this factual determination right, its
conclusion wouldn’t have changed. As we stated in
Jones, whether jurors have close ties to law
enforcement officers is irrelevant to an inherentprejudice claim; such ties only move the needle for
49

Leal v. Dretke, 428 F.3d 543, 548 (5th Cir. 2005).

50 Will, 2004 WL 3093238, at *4 (“Here, the presence of the
uniformed officers in the courtroom merely showed their
solidarity and support for a fellow slain officer.”).

Id. (“Also, this case is distinguishable from appellant’s cited
[non-binding] case of Woods v. Dugger because, among other
things, there is no evidence that any of appellant’s jurors had
close ties to law enforcement.” (emphases added)).
51

App. 19
actual prejudice. 52 Because the “state court’s ruling
on the [inherent-prejudice] claim ... was [not] so
lacking in justification that there was an error well
understood and comprehended in existing law
beyond
any
possibility
for
fairminded
disagreement,” habeas relief under our deferential
AEDPA standard is improper. 53
Will identifies no clearly established law that the
CCA misapplied, nor any unreasonable factual
determinations on which the court based its holding.
Because Will has not met the statutory
prerequisites, his habeas claim for inherent
prejudice fails here as it did below.
IV
We AFFIRM the district court across the board.

Jones, 890 F.3d at 571 (“We note that the record does not
fully support the district court’s assertion that no jurors had
friends of relatives who were officers; however, this
discrepancy does not change the outcome of this case because
only inherent prejudice has been alleged.”).
53 Bobby v. Dixon, 565 U.S. 23, 24, 132 S.Ct. 26, 181 L.Ed.2d
328 (2011) (citation omitted).
52

App. 20
United States Court of Appeals
for the Fifth Circuit
____________
No. 18-70030
____________
ROBERT GENE WILL, II,

Petitioner—Appellant,

versus
BOBBY LUMPKIN, Director, Texas Department of
Criminal Justice, Correctional Institutions
Division,
Respondent—Appellee.
________________________
Appeal from the United States District Court
for the Southern District of Texas
USDC No. 4:07-CV-1000
________________________
(Filed August 17, 2020)
Before OWEN, Chief Judge, and WILLETT and HO,
Circuit Judges.
DON R. WILLETT, Circuit Judge:
Robert Gene Will II was sentenced to death by a
Texas jury for the murder of Harris County Sheriff’s
Deputy Barrett Hill. After his failed direct appeal
and state habeas petitions, Will pursued federal
habeas relief. His claims for ineffective assistance of
counsel and inherent trial prejudice were denied—

App. 21
the former as procedurally defaulted and the latter
on the merits. Will attempted to contest the
procedural-default holding through a Rule 60(b)
motion, but the district court concluded that it
lacked jurisdiction because the motion constituted a
successive habeas petition. We agree that Will’s
Rule 60(b) motion was a successive habeas petition,
and we affirm the district court. We also affirm the
denial of Will’s inherent-prejudice claim, as Will
fails to overcome the arduous standard of review in
the Anti-Terrorism and Effective Death Penalty Act.
I
Will was found guilty of capital murder in Texas
state court and sentenced to death. 1 Will appealed
directly to the Texas Court of Criminal Appeals,
arguing that the presence of uniformed officers in
the courtroom impermissibly prejudiced the jury,
but the court disagreed. 2 Will then filed a state
habeas petition with the same court on the same

For full treatment of Will’s previous proceedings, see Will v.
Thaler, No. H-07-CV-1000, 2010 WL 2179680, at *1–6 (S.D.
Tex. May 25, 2010).
1

Will v. State, No. 74,306, 2004 WL 3093238, at *4 (Tex. Crim.
App. April 21, 2004) (unpublished).

2

App. 22
grounds. The CCA reached the same conclusion and
denied relief. 3
Will then filed a federal habeas petition,
maintaining his argument about impermissible trial
prejudice and adding an argument based on
ineffective assistance of trial counsel (and one based
on actual innocence claim, not pursued in this
appeal). 4 The district court stayed Will’s federal
proceedings so he could exhaust the new claims in
state court. Will filed a second state habeas petition
raising the new claims, which the CCA denied on
procedural grounds.
Back in federal court, the district court denied
Will’s petition because (1) the IATC claim was
procedurally defaulted and failed on its merits
regardless, and (2) the state court did not err in
denying the trial-prejudice claim on the merits. 5
Will filed a Rule 59 motion for a new trial and to
alter the district court’s judgment; this motion was
denied. Will then filed a Rule 60(b) motion for relief
from the district court’s judgment. The motion
Ex parte Will, No. 63,590-01, 2006 WL 832456, at *1 (Tex.
Crim. App. March 29, 2006) (per curiam) (unpublished).
3

We note that Will’s state habeas counsel had Parkinson’s
disease at the time he filed this petition. A reviewing doctor
testified that “it is probable that [counsel] was mentally
impaired by the affects [ ] of Parkinson’s disease to the degree
that it made him unfit to serve in the capacity as habeas
counsel for a capital appeal.”

4

5

Will, 2010 WL 2179680, at *14–24.

App. 23
focused on the ineffective assistance of both his trial
counsel and state habeas counsel, urging that the
latter should excuse the procedural default of his
claim about the former. The district court found,
however, that Will’s Rule 60(b) motion challenging
the procedural-default ruling necessarily implied a
challenge to the merits ruling, meaning that the
motion was a successive habeas petition.
Accordingly, the court denied it for lack of
jurisdiction. 6 Will appealed this denial to us. 7
But, before we could rule, the Supreme Court
decided Martinez v. Ryan, holding that
“[i]nadequate assistance of counsel at initial-review
collateral proceedings may establish cause for a
prisoner’s procedural default of a claim of ineffective
assistance at trial.” 8 So we remanded Will’s appeal
to the district court for (1) reconsideration of the
Rule 60(b) motion dismissal in light of this new
precedent, and (2) clarification on whether a

Will v. Thaler, No. CIV.A. H-07-1000, 2012 WL 948409, at *2
(S.D. Tex. Mar. 19, 2012), order clarified sub nom. Will v.
Davis, No. H-07-CV-1000, 2018 WL 4621170 (S.D. Tex. Sept.
26, 2018).

6

7 Will v. Davis, No. H-07-CV-1000, 2018 WL 4621170, at *1
(S.D. Tex. Sept. 26, 2018).

566 U.S. 1, 9, 132 S.Ct. 1309, 182 L.Ed.2d 272 (2012). A year
later Trevino v. Thaler came down, applying the Martinez rule
to cases from Texas state courts. 569 U.S. 413, 417, 133 S.Ct.
1911, 185 L.Ed.2d 1044 (2013).

8

App. 24
certificate of appealability should issue on Will’s
claims.
The district court again denied Will’s Rule 60(b)
motion, reasoning that, regardless of Martinez, it “is
a successive habeas petition which the [c]ourt has no
jurisdiction to consider under [AEDPA].” 9 But it also
granted Will a COA on two issues: his dismissed
Rule 60(b) motion and his denied trial-prejudice
claim. 10 Will pursues these claims now, arguing that
(1) the Rule 60(b) motion is not an impermissible
successive habeas petition because it only attacked
the “integrity of the [underlying] federal habeas
proceeding,” and (2) he should be granted habeas
relief from the adverse trial-prejudice ruling because
the CCA misapplied clearly established federal law
or its holding was based on unreasonable factual
determinations.
II
As to Will’s first argument, we review de novo
“[t]he district court’s determination that a purported
Rule 60(b) motion constitutes a successive § 2254
habeas petition.” 11
As to Will’s second argument, our review of the
CCA’s trial-prejudice decision is narrow: we only
9

Will, 2018 WL 4621170, at *1.

10

Id. at *3.

Gilkers v. Vannoy, 904 F.3d 336, 342 (5th Cir. 2018), cert.
denied, ––– U.S. ––––, 139 S. Ct. 1192, 203 L.Ed.2d 223 (2019).

11

App. 25
consider whether the decision was “contrary to, or an
unreasonable application of, clearly established
Federal law” or “based on an unreasonable
determination of the facts in light of the evidence
presented in the State court proceeding.” 12
III
A
Will proceeds under our statutorily prescribed
and exactingly applied habeas framework.
Normally, “Rule 60(b) allows a party to seek relief
from a final judgment, and request reopening of his
case, under” extraordinary circumstances. 13 But in
the habeas context, Will’s Rule 60(b) motion runs
headlong into AEDPA’s restriction on successive
habeas applications. Why? Because we—the federal
judiciary—are concerned that petitioners will use
Rule 60(b) motions to subvert the statutory
framework and get an impermissible second look at
their denied habeas claims. 14 So, we must ask, was
12

28 U.S.C. § 2254(d).

Gonzalez v. Crosby, 545 U.S. 524, 528, 125 S.Ct. 2641, 162
L.Ed.2d 480 (2005).
13

Gilkers, 904 F.3d at 343 (“To ensure that habeas petitioners
do not circumvent these statutory requirements by filing Rule
60(b) motions that are the functional equivalent of
unauthorized successive § 2254 petitions, the Supreme Court
set forth several guidelines ... for determining the
circumstances under which a district court may properly
consider a Rule 60(b) motion in a § 2254 habeas proceeding.”);
Gonzalez, 545 U.S. at 532, 125 S.Ct. 2641 (“[A]lleging that the
court erred in denying habeas relief on the merits is effectively
14

App. 26
Will’s Rule 60(b) motion actually an impermissible
successive habeas petition in disguise? The answer:
yes, if his Rule 60(b) motion contains one or more
previously presented habeas claims. 15
A habeas claim “is an asserted federal basis for
relief from a state court’s judgment of conviction.” 16
“In most cases, determining whether a Rule 60(b)
motion advances one or more ‘claims’ will be
relatively simple”: the motion advances a claim “if it
attacks the federal court’s previous resolution of a
claim on the merits.” 17 But, as we said in Gilkers,
“there are two circumstances in which a district
court may properly consider a Rule 60(b) motion in
a § 2254 proceeding: (1) the motion attacks a ‘defect
in the integrity of the federal habeas proceeding’ or
indistinguishable from alleging that the movant is, under the
substantive provisions of the statutes, entitled to habeas
relief.”); see also Leal Garcia v. Quarterman, 573 F.3d 214, 220
(5th Cir. 2009) (stating that AEDPA serves as a “gate-keeper
by preventing the repeated filing of habeas petitions that
attack the prisoner’s underlying conviction”).
Gonzalez, 545 U.S. at 530, 125 S.Ct. 2641 (stating that §
2254’s successive petition bar only applies to a petitioner’s Rule
60(b) motion if it is an “application for habeas relief”; a motion
applies for habeas relief if it “contains one or more ‘claims’ ”
(citations omitted)); Williams v. Thaler, 602 F.3d 291, 301 (5th
Cir. 2010) (“AEDPA instructs us to dismiss any claim
presented in a second or successive petition if a petitioner
presented the claim in a previous application.” (citation
omitted)).
15

16

Gonzalez, 545 U.S. at 531, 125 S.Ct. 2641.

17

Id. at 532, 125 S.Ct. 2641.

App. 27
(2) the motion attacks a procedural ruling that
precluded a merits determination.” 18 “If the
purported Rule 60(b) motion satisfies one of these
circumstances,” the motion does not present a
habeas claim, and “the district court may then
properly consider [it] under Rule 60(b).” 19
This means that we must assess two of the
district court’s orders: the order denying Will’s Rule
60(b) motion challenging the denial of habeas relief,
plus the denial of habeas relief itself. 20
Will’s Rule 60(b) motion attempted to request
relief only on the grounds that the district court had
erroneously concluded that his IATC claim was
procedurally defaulted (procedural default being a
proper 60(b) topic, such a request might dodge §
2244’s jurisdictional bar on second or successive
habeas petitions). But the district court ascertained
that a review of the procedural-default conclusion in
this case would be fruitless without a review of the
order’s other conclusion—that, alternatively, the
IATC claim failed on the merits. And a review of the
merits would constitute a second or successive
habeas petition, beyond the purview of Rule 60(b),
and beyond the district court’s jurisdiction under §
2244. 21 The district court therefore denied Will’s
18

904 F.3d at 344.

19

Id. (citation omitted).

20

Will, 2018 WL 4621170, at *1, *14–18.

Will, 2010 WL 2179680, at *18 (“Even if this Court could
consider the substance of Will’s ineffective-assistance claim, he

21

App. 28
motion as “a successive habeas petition which the
[c]ourt has no jurisdiction to consider under
AEDPA.” 22
On appeal, Will’s briefing predominantly tracks
the first circumstance Gilkers discussed, Gonzalez’s
“defect in integrity” prong. Because of the erroneous
procedural-default ruling, he argues, the court only
briefly addressed the merits of Will’s IATC claim
instead of giving it full substantive treatment. Thus,
Will argues, his Rule 60(b) motion’s “attack on the
district court’s decisionmaking process was
procedural,” not merits based, [and] his [ ] motion is
[therefore] not a successive petition.” The State
disagrees: Will’s motion impermissibly attacked “the
federal court’s previous resolution of a claim on the
merits” no matter how you frame it.
Will’s “defect in integrity” argument is
unavailing: The merits analysis was four pages long
and analytically robust. 23
The closer question is the second circumstance
Gilkers discussed, whether Will’s motion attacks a
procedural ruling that precluded a merits

has not shown Strickland prejudice. The Court alternatively
denies his Strickland claim on the merits.”); Will, 2018 WL
4621170 (“[T]he Court alternatively ruled on the merits of the
claims in Will’s federal petition.”).
22

Will, 2018 WL 4621170, at *1–3.

23

See, e.g., Will, 2010 WL 2179680, at *14–18.

App. 29
determination. 24 Here, the district court disposed
of Will’s IATC claim on procedural-default grounds,
a procedural ruling; but it also reasoned, in the
alternative, that Will’s IATC claim failed on the
merits. 25
The crux of our inquiry is simple—is a merits
analysis in the alternative a merits determination? If
so, the district court’s procedural disposition did not
preclude a merits determination and, in turn, Will’s
Rule 60(b) motion presents a habeas claim. Because
we hold that a full merits analysis in the alternative
is a merits determination, the court’s procedural
disposition did not “preclude[ ] a merits
determination.” 26
Therefore, Will’s Rule 60(b)
motion—attacking a procedural ruling paired with a
merits determination in the alternative—is a
successive habeas petition that we lack jurisdiction
to consider.
Consider Gonzalez. In that seminal case, Justice
Scalia reasoned that a motion only presents a
habeas claim if, among other things, the motion
Gilkers, 904 F.3d at 344. Though Will did not focus on this
argument, his comprehensive briefing presented this
contention, and we review it. With multiple pages of
development, record cites, and case examples, the briefing was
not so cursory that Will forfeited the argument. See Claimant
ID 100217021 v. BP Expl. & Prod., Inc., 693 F. App’x 272, 276
n.4 (5th Cir. 2017) (citing Cinel v. Connick, 15 F.3d 1338, 1342–
45 (5th Cir. 1994)).
24

25

Will, 2010 WL 2179680, at *14–18.

26

See Gilkers, 904 F.3d at 344.

App. 30
“attacks the federal court’s previous resolution of a
claim on the merits.” 27 “[O]n the merits” means “a
determination that there exist or do not exist
grounds entitling a petitioner to habeas corpus
relief.” 28 And a merits analysis in the alternative
makes this substantive determination, even if such
determination was not the basis for the court’s
holding. 29 So, when a court order analyzes whether
“there exist or do not exist grounds entitling a
petitioner” to habeas relief—in other words, makes
a merits determination—a Rule 60(b) motion
contesting this order (even on procedural grounds)
necessarily presents a successive habeas claim. 30
After all, if a petitioner succeeds on a procedural
claim, the court’s merits determination in the
alternative will control. 31
Here, the district court found Will’s claim
procedurally barred. But it went on to analyze Will’s
substantive contentions, “alternatively den[ying] his
27

545 U.S. at 532, 125 S.Ct. 2641 (emphasis in original).

28

Id. at 531–32 n.4, 125 S.Ct. 2641 (emphasis added).

29

Id.

30

Id.

See, e.g., Gallegos-Hernandez v. United States, 688 F.3d 190,
196 (5th Cir. 2012) (analyzing a district court’s alternative
holding after it overruled its primary holding); United States v.
Minjarez, 540 F. App’x 349, 350 (5th Cir. 2013) (unpublished)
(affirming a district court based on its alternative holding);
Giles v. City of Dallas, 539 F. App’x 537, 542 (5th Cir. 2013)
(unpublished) (same).

31

App. 31
Strickland claim on the merits.” 32 Will filed a Rule
60(b) motion for relief from this judgment, urging
that the procedural-bar ruling was erroneous. Let’s
assume Will’s motion is granted—what happens
next? The district court’s alternative determination
will preclude any habeas relief on the merits. 33 In
turn, because the court made a substantive habeas
ruling in the alternative, it cannot be said that Will’s
Rule 60(b) motion is “merely assert[ing] that a
previous
ruling
...
precluded
a
merits
determination.” 34 The court’s merits determination
was not precluded; it was merely layered below a
procedural disposition. Therefore, when a court
order disposes of a habeas claim on procedural and,
in the alternative, substantive grounds, a Rule 60(b)
motion contesting this order inherently presents a
successive habeas petition.
This conclusion finds support in Gonzalez. As
we’ve discussed, the Gonzalez Court was concerned
with preventing habeas petitioners from using Rule
60(b) motions to circumvent AEDPA’s “successivepetition bar.” 35 And our ruling today respects the
Court’s expressed concern, recently reexpressed in
Bannister v. Davis: “A Rule 60(b) motion ...
32

Will, 2010 WL 2179680, at *18.

Gonzalez, 545 U.S. at 532, 125 S.Ct. 2641; see also supra
note 31.
33

34

Id.

35

Id.

App. 32
threatens serial habeas litigation; indeed, without
rules suppressing abuse, a prisoner could bring such
a motion endlessly.” 36 Moreover, giving due weight
to a district court’s alternative reasoning on the
merits tracks this circuit’s “rule that alternative
holdings are binding precedent and not obiter
dictum.” 37
In sum, Will’s Rule 60(b) motion—facially
challenging a procedural ruling and implicitly
challenging a merits determination—presents a
habeas claim. 38 Accordingly, we affirm the district
court’s holding that “Will’s 60(b) Motion is a

36

––– U.S. ––––, 140 S. Ct. 1698, 1710, 207 L.Ed.2d 58 (2020).

37 Texas v. United States, 809 F.3d 134, 178 (5th Cir. 2015), as
revised (Nov. 25, 2015) (internal quotations omitted).

Will’s Rule 60(b) motion also argues that the district court’s
proceeding was defective because it made its IATC
determination “with the benefit of too little evidence” and
therefore his motion presenting such evidence isn’t successive.
But these substantive contentions are squarely successive, and
improper, under our precedent. In re Coleman, 768 F.3d 367,
371–72 (5th Cir. 2014) (finding that petitioner’s Rule 60(b)
motion, requesting relief because her counsel did not present
certain evidence, was barred as a successive habeas petition).
We have no jurisdiction over this contention and only consider
Will’s Rule 60(b) motion to the extent it attacks an allegedly
erroneous procedural ruling that precluded a merits
determination. Cf. id. at 373. However, on remand, the district
court may consider (and rectify) whether, if at all, an erroneous
procedural ruling truncated the necessary discovery.
38

App. 33
successive habeas petition which the Court has no
jurisdiction to consider under AEDPA.” 39
B
Will next contends the CCA’s holding that “the
mere presence of uniformed officers in the courtroom
[did not] create[ ] an atmosphere that ‘inherently
lacked due process’ ” was in error; therefore, he
insists, this habeas claim should have been
granted. 40
Because the CCA rejected Will’s
inherent-prejudice claim on the merits, its holding is
subject to AEDPA’s relitigation bar. 41 Attempting to
hurdle this bar, Will urges the state court’s decision
was an unreasonable application of clearly
established Supreme Court precedent—namely
Holbrook v. Flynn, 475 U.S. 560, 106 S.Ct. 1340, 89
L.Ed.2d 525 (1986)—and was “based on an
unreasonable determination of the facts.” We
disagree on both fronts.
A state court unreasonably applies clearly
established Supreme Court precedent when it
improperly identifies the governing legal principle,
unreasonably extends (or refuses to extend) a legal
This outcome is predicated on the comprehensive nature of
the district court’s substantive merits determination in the
alternative. Will, 2010 WL 2179680, at *14–18. Our holding
today would not apply with equal force in a future case with an
unduly cursory alternative merits analysis.
39

40

Will, 2004 WL 3093238, at *4 (cleaned up).

41

§ 2254(d).

App. 34
principle to a new context, or when it gets the
principle right but “applies it unreasonably to the
facts of a particular prisoner’s case.” 42 But the
Supreme Court has only clearly established
precedent if it has “broken sufficient legal ground to
establish an asked-for constitutional principle.” 43 To
Will, 12–18 uniformed officers seated in the
courtroom gallery near the jury inherently
prejudiced him in violation of Flynn, and the CCA’s
decision otherwise was an unreasonable application
of this clearly established precedent.
Will’s argument is well made, but not well taken.
Neither Flynn, nor any other Supreme Court
42 Williams v. Taylor, 529 U.S. 362, 407–08, 120 S.Ct. 1495, 146
L.Ed.2d 389 (2000); see also Harrington v. Richter, 562 U.S. 86,
102, 131 S.Ct. 770, 178 L.Ed.2d 624 (2011) (stating that
relitigation is only permitted “where there is no possibility
fair[-]minded jurists could disagree that the state court’s
decision conflicts with [Supreme] Court[ ] precedent[ ]”).

Taylor, 529 U.S. at 380–82, 120 S.Ct. 1495 (“[T]he lower
federal courts cannot themselves establish such a principle.”);
see, e.g., Pierre v. Vannoy, 891 F.3d 224, 228 (5th Cir.), as
revised (June 7, 2018), cert. denied, ––– U.S. ––––, 139 S. Ct.
379, 202 L.Ed.2d 290 (2018) (“Without a Supreme Court case
holding that the State’s unknowing use of false testimony
violates the Due Process Clause, Pierre cannot show that the
Louisiana Supreme Court unreasonably applied clearly
established federal law as determined by the Supreme Court of
the United States.”); Woodward v. Epps, 580 F.3d 318, 332 (5th
Cir. 2009) (“Given the lack of a clear Supreme Court holding
that a defendant is entitled to independent psychiatric
assistance and the different circuit interpretations of Ake on
this point, the decision of the Mississippi Supreme Court was
not ‘contrary to’ or an ‘unreasonable application of’ clearly
established federal law.”).
43

App. 35
precedent, clearly establishes when uniformed, offduty officers in the courtroom gallery generate
inherent prejudice. 44
Because this necessary
predicate is not met, Will’s argument is a nonstarter under our deferential standard of review. 45
Next, Will admonishes that habeas relief is
separately warranted because the state court’s
decision was based on an “unreasonable
Flynn, 475 U.S. at 572, 106 S.Ct. 1340; Jones v. Davis, 890
F.3d 559, 568 (5th Cir. 2018), cert. denied, ––– U.S. ––––, 139
S. Ct. 795, 202 L.Ed.2d 587 (2019) (finding that off-duty
uniformed police officers in the gallery present “neither clearly
private nor clearly state action” and noting that the Supreme
Court has never considered Flynn’s applicability to these
quasi-state spectators); Carey v. Musladin, 549 U.S. 70, 76, 127
S.Ct. 649, 166 L.Ed.2d 482 (2006) (“In contrast to statesponsored courtroom practices, the effect on a defendant’s fairtrial rights of [private spectator conduct] is an open question in
our jurisprudence. This Court has never addressed a claim that
such private-actor courtroom conduct was so inherently
prejudicial that it deprived a defendant of a fair trial.”).
44

Put simply, the Supreme Court has hindered Will’s claim by
not affirmatively “establish[ing]” the “asked-for constitutional
principle.” Taylor, 529 U.S. at 380–82, 120 S.Ct. 1495; Carey,
549 U.S. at 76, 127 S.Ct. 649 (“Given the lack of holdings from
this Court regarding the potentially prejudicial effect of
[private] spectators’ courtroom conduct ..., it cannot be said
that the state court ‘unreasonably applied clearly established
Federal law.’ ” (cleaned up)). In Jones, we acknowledged the
lack of Supreme Court direction on this issue but nonetheless
reviewed a similar claim on the merits, analyzing whether the
“police presence intimidated the jury or disrupted the factfinding process in any way.” 890 F.3d at 571. We do not take a
similar course here because our review is hemmed in by §
2254(d), as in Carey, 549 U.S. at 76, 127 S.Ct. 649; in contrast,
Jones’s review was de novo. 890 F.3d at 567.
45

App. 36
determination of the facts in light of the evidence
presented in the State court proceeding.” 46 Will
trains his sights on the CCA’s “erroneous” finding
that Will’s case is distinguishable from Woods v.
Dugger, 47 “because, among other things, there is no
evidence that any of [Will’s] jurors had close ties to
law enforcement.” 48 But the CCA’s factual findings
are “entitled to a presumption of correctness,” and
Will can only overcome that presumption “by clear
and convincing evidence.” 49 Though Will’s claim is
not frivolous, we ultimately disagree—the CCA’s

46

Taylor, 529 U.S. at 386, 120 S.Ct. 1495 (cleaned up).

923 F.2d 1454, 1459–60 (11th Cir. 1991) (finding that the
presence of uniformed prison guards filling over half the
gallery, disruptive spectators, the small juror pool, and
extensive pre-trial publicity created “an unacceptable risk [of]
impermissible factors coming into play”).

47

48 Will, 2004 WL 3093238, at *4. Will also takes issue with the
state court’s assertion that “appellant objected to the officers’
uniforms on only two occasions during a two and one-half week
trial consisting of 12 days of testimony.” But Will’s issue is
more with the state court’s implicit finding that the lack of
objections demonstrated the record was too scant to depict
inherent prejudice. However, this argument is curtailed by our
standard of review—it erroneously takes issue with how the
state court applied the law to the record, which we cannot
review, rather than the reasonableness of the court’s factual
determinations.
49

Leal v. Dretke, 428 F.3d 543, 548 (5th Cir. 2005).

App. 37
decision wasn’t based on an unreasonable factual
determination.
We agree with Will at the outset: The CCA’s
conclusion that there was no evidence Will’s jurors
“had close ties to law enforcement” was
unreasonable considering the evidence before it. The
juror questionnaires and trial transcript clearly and
convincingly establish that at least three jurors
actually had “close ties” to police officers. But we
disagree with Will’s conclusion. The CCA’s noinherent-prejudice decision was not based on this
unreasonable determination. Rather, its holding
was founded on the lack of evidence of “some type of
state action.” 50 Its citation to “no evidence” of law
enforcement ties merely bolstered the conclusion it
had already reached. 51 In other words, even if the
CCA had gotten this factual determination right, its
conclusion wouldn’t have changed. As we stated in
Jones, whether jurors have close ties to law
enforcement officers is irrelevant to an inherentprejudice claim; such ties only move the needle for
actual prejudice. 52 Because the “state court’s ruling
Will, 2004 WL 3093238, at *4 (“Here, the presence of the
uniformed officers in the courtroom merely showed their
solidarity and support for a fellow slain officer.”).
50

Id. (“Also, this case is distinguishable from appellant’s cited
[non-binding] case of Woods v. Dugger because, among other
things, there is no evidence that any of appellant’s jurors had
close ties to law enforcement.” (emphases added)).
51

Jones, 890 F.3d at 571 (“We note that the record does not
fully support the district court’s assertion that no jurors had
friends of relatives who were officers; however, this

52

App. 38
on the [inherent-prejudice] claim ... was [not] so
lacking in justification that there was an error well
understood and comprehended in existing law
beyond
any
possibility
for
fairminded
disagreement,” habeas relief under our deferential
AEDPA standard is improper. 53
Will identifies no clearly established law that the
CCA misapplied, nor any unreasonable factual
determinations on which the court based its holding.
Because Will has not met the statutory
prerequisites, his habeas claim for inherent
prejudice fails here as it did below.
IV
We AFFIRM the district court across the board.

discrepancy does not change the outcome of this case because
only inherent prejudice has been alleged.”).
53 Bobby v. Dixon, 565 U.S. 23, 24, 132 S.Ct. 26, 181 L.Ed.2d
328 (2011) (citation omitted).

App. 39
IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION
ROBERT GENE WILL,
II,
Petitioner,
v.
LORIE DAVIS,
Director,
Texas Department of
Criminal Justice,
Correctional
Institutions Division,
Respondent.

§
§
§
§
§
§
§
§
§
§
§
§
§
§

H-07-CV-1000

MEMORANDUM AND ORDER
(Filed September 26, 2018)
This case originated as a straightforward habeas
corpus petition and has become a procedural imbroglio.
That should not, however, obscure the troubling
possibility of Petitioner Robert Gene Will’s actual
innocence.
Previous opinions of the Court cover this case’s
history in detail, 1 and reference to that history is

1

See Doc. No. 44 at 2-8, 13-15; Doc. No. 66 at 4-8.

App. 40
necessary only as it relates to the discrete task now
before the Court.
This Court denied Will’s petition for a writ of
habeas corpus in 2010. 2 Will subsequently filed an
Emergency Motion for Relief from Judgment pursuant
to Federal Rules of Civil Procedure 60(b). 3 After
extensive briefing and argument by counsel for the
parties, on March 19, 2012, the Court held that the
Rule 60(b) motion actually constituted a successive
habeas petition, which the Court had no jurisdiction to
consider under the Anti-Terrorism and Effective Death
Penalty Act (“AEDPA”). 4 Finding itself “powerless to
address the merits of the additional claims raised postjudgment, unsettling though they are,” and remarking
that “[q]uestions as to Will’s possible innocence do
remain,” the Court observed that federal law vested

Doc. No. 44.
Doc. No. 102. Will had previously moved for
reconsideration under Federal Rules of Civil Procedure
Rule 59(e). Doc. Nos. 46, 47. After an evidentiary
hearing, the Court denied Will’s initial post-judgment
motions. Doc. No. 88.
4 See Doc. No. 144 at 5 (finding that Will’s Rule 60(b)
Motion was a successive petition); see also 28 U.S.C. §
2244(b); Gonzalez v. Crosby, 545 U.S. 524, 526 (2005)
(finding that a Rule 60(b) motion for relief from
judgment qualifies as a second or successive petition if
the motion contains new claims or new evidence in
support of prior claims).
2
3

App. 41
“power...exclusively in the Fifth Circuit” to act on his
post-judgment arguments. 5
The day after Will filed his notice of appeal, the
Supreme Court issued Martinez v. Ryan, 566 U.S. 1
(2012). Martinez held that deficient representation by
an attorney in a state habeas proceeding could
overcome what would normally be a bar to a federal
habeas petitioner’s attempt to raise issues not raised
in the state proceeding. Martinez could certainly have
important implications for this case since the conduct
of Will’s original state habeas counsel appears to have
been severely compromised by serious health
conditions.
The Fifth Circuit stayed the action and remanded
the case for two purposes. First, this Court must decide
the effect of the Supreme Court’s decision in Martinez
on the Motion for Relief from Judgment pursuant to
Federal Rule of Civil Procedure 60(b) filed by
Petitioner Robert Gene Will. Second, the Fifth Circuit
asked for clarification on whether a Certificate of
Appealability (“COA”) should issue on Will’s claims. 6
Mindful of the effect Martinez may have on Will’s
Rule 60(b) motion, the Court again invited and
received substantial briefing by the parties.
Nonetheless, the Court is forced to circle back to its
decision in 2012. Will’s 60(b) Motion is a successive
habeas petition which the Court has no jurisdiction to
consider under AEDPA. Martinez did not affect
5

Doc. No. 106 at 5-6.

6

Will v. Thaler, No. 12-70007 (5th Cir. May 18, 2012).

App. 42
AEDPA, and Martinez did not augment the limited
jurisdiction that this Court has to consider habeas
petitions.
This technical ruling should not serve, however, to
obscure the extraordinarily significant issues that the
Court of Appeals – unlike this Court – can properly
consider. First, in light of Martinez, the Court of
Appeals should carefully review the evident
misfeasance of Will’s state habeas counsel. 7 Secondly,
the Court of Appeals should examine Will’s argument,
which has been part of his habeas petitions from the
start, that the presence of numerous uniformed law
enforcement officers at his trial created an
unconstitutionally coercive environment for the jury. If
this Court had heard such an argument on direct
appeal, it would almost certainly have granted relief. 8
With the far more limited jurisdiction afforded to a

While the Court alternatively ruled on the merits of
the claims in Will’s federal petition (Doc. No. 44 at 2638.), the abundance of information Will has amassed
that trial counsel did not present should have been
gathered by a competent, zealous attorney in the first
round of state habeas review. The Court observes that
Respondent urged this Court to grant a COA on issues
arising from Will’s Rule 60(b) motion (Doc. No. 106 at
5; Doc. No. 111 at 17), but argued on appeal that a COA
on those grounds was invalid.
7

See Doc. No. 44 at 33-44 (describing the coercive effect
of numerous police officers at Will’s trial).
8

App. 43
federal court reviewing a habeas petition, this critical
issue has been beyond the Court’s reach.
The Court, therefore, finds that a COA is warranted
on (1) Will’s Rule 60(b) motion and (2) the third ground
for habeas relief in Will’s habeas petition (involving the
presence of uniformed police officers). The Court
otherwise finds that well-settled law forecloses any
relief in this Court.
This Court has repeatedly expressed deep concern
for the factually complex insinuations that Will may be
innocent of the crime for which he faces a death
sentence. The Court is particularly sensitive to the
absence of any direct evidence of Will’s guilt, and the
number of witnesses who aver that another man
confessed to the underlying murder. As this Court has
previously observed:
Will has repeatedly and persistently argued that [his
co-defendant] Rosario killed Deputy Hill....Will has
submitted no less than five witnesses who have stated
that Rosario confessed to murdering Deputy
Hill....Moreover, as set forth in the Court’s
Memorandum and Order of May 25, 2010, the presence
in the trial courtroom of so many uniformed policemen
would have likely justified post-trial relief had the
issue arisen on direct appeal rather than in a petition
for habeas corpus. (Doc. No. 44 at 33-42.) On top of the
considerable evidence supporting Will’s innocence and
the important errors in the trial court, there must also
be addressed the total absence of eyewitness testimony
or strongly probative forensic evidence. With facts such
as these, and only circumstantial evidence supporting

App. 44
Will’s conviction and death sentence, the Court
laments the strict limitations placed upon it.
Within the narrow borders of federal review, this
Court has allowed liberal exploration of Will’s various
arguments. The questions raised during post-judgment
factual development about Will’s actual innocence
create disturbing uncertainties that, under federal
habeas jurisprudence, the Court is powerless to
address. 9
Recent pleadings have compounded this Court’s
concern and discomfort, but have not ameliorated the
procedural impediments to full review.
The Court very much wishes it could take up all of
these issues without the constraints of habeas review.
With fewer constraints, the Court of Appeals can
perhaps give these issues the time and attention that
they merit. Nevertheless, this Court lacks jurisdiction
to explore the troubling concerns that plague Will’s
capital conviction.
In sum, the Court reconfirms the denial of Will’s
Rule 60(b) motion and clarifies that a COA is
warranted on (1) issues arising from his Rule 60(b)

9

Doc. No. 88 at 19.

App. 45
motion and (2) the third ground for habeas relief in
Will’s federal petition.
IT IS SO ORDERED.
IT IS SO ORDERED.
SIGNED at Houston, Texas, on this 26th day of
September, 2018.
/s/ Keith P. Ellison
Keith P. Ellison
United States District Judge

App. 46
United States Court of Appeals
for the Fifth Circuit
____________
No. 18-70030
____________
ROBERT GENE WILL, II,

Petitioner—Appellant,

versus
BOBBY LUMPKIN, DIRECTOR, TEXAS DEPARTMENT OF
CRIMINAL JUSTICE, CORRECTIONAL INSTITUTIONS
DIVISION,
Respondent—Appellee.
________________________
Appeal from the United States District Court
for the Southern District of Texas
USDC No. 4:07-CV-1000
________________________
(Filed Dec. 28, 2020)
(Opinion October 22, 2020, 5 Cir., 2020, 978 F.3d
933)
Before Owen, Chief Judge, and Willett and Ho,
Circuit Judges.
Per Curiam:
Treating the Petition for Rehearing En Banc as a
Petition for Panel Rehearing, the Petition for Panel
Rehearing is DENIED. No member of the panel nor
judge in regular active service of the court having

App. 47
requested that the court be polled on Rehearing En
Banc (Fed. R. App. P. and 5th Cir. R. 35), the
Petition for Rehearing En Banc is DENIED.

App. 48
United States Court of Appeals
for the Fifth Circuit
____________
No. 18-70030
____________
ROBERT GENE WILL, II,

Petitioner—Appellant,

versus
BOBBY LUMPKIN, DIRECTOR, TEXAS DEPARTMENT OF
CRIMINAL JUSTICE, CORRECTIONAL INSTITUTIONS
DIVISION,
Respondent—Appellee.
________________________
Appeal from the United States District Court
for the Southern District of Texas
USDC No. 4:07-CV-1000
________________________
(Filed October 22, 2020)
Before Owen, Chief Judge, and Willett and Ho,
Circuit Judges.
Per Curiam:
JUDGMENT ON PETITION FOR REHEARING
This cause was considered on the record on
appeal and the briefs on file.

App. 49
IT IS ORDERED and ADJUDGED that the
judgment of the District Court is AFFIRMED.
IT IS FURTHER ORDERED that each party
bear its own costs on appeal.

App. 50
IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION
ROBERT GENE WILL, II, §
§
Petitioner,
§
§
v.
§
§
RICK THALER, Director, §
Texas Department of
§
Criminal Justice,
§
Correctional Institutions §
§
Division,
§
Respondent.
§
§

H-07-CV-1000

(Filed May 25, 2010)
FINAL JUDGMENT
The Court DENIES Robert Gene Will's petition for
a writ of habeas corpus and DISMISSES this case
WITH PREJUDICE.
The Clerk will provide a copy to the parties.
SIGNED at Houston, Texas, on this 25th day of May,
2010.
/s/ Keith Ellison
Keith Ellison
United States District Judge

